<html>
<title> - OVERSIGHT HEARING ON SCIENTIFIC ADVISORY PANELS AND PROCESSES AT THE ENVIRONMENTAL PROTECTION AGENCY AND LEGISLATIVE HEARING ON S. 543, THE SCIENCE ADVISORY BOARD REFORM ACT OF 2015</title>
<body><pre>[Senate Hearing 114-38]
[From the U.S. Government Publishing Office]



                                                         S. Hrg. 114-38
 
 OVERSIGHT HEARING ON SCIENTIFIC ADVISORY PANELS AND PROCESSES AT THE 
ENVIRONMENTAL PROTECTION AGENCY AND LEGISLATIVE HEARING ON S. 543, THE 
               SCIENCE ADVISORY BOARD REFORM ACT OF 2015

=======================================================================

                                HEARING

                               before the

 SUBCOMMITTEE ON SUPERFUND, WASTE MANAGEMENT, AND REGULATORY OVERSIGHT

                                 of the

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 20, 2015

                               __________

  Printed for the use of the Committee on Environment and Public Works
  
  
  
  
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 
  
  
  


       Available via the World Wide Web: http://www.gpo.gov/fdsys
       
                         __________

               U.S. GOVERNMENT PUBLISHING OFFICE
94-998 PDF               WASHINGTON : 2016       
_________________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Publishing Office,
      Internet:bookstore.gpo.gov. Phone:toll free (866)512-1800;DC area (202)512-1800
     Fax:(202) 512-2104 Mail:Stop IDCC,Washington,DC 20402-001
     
     
     


               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                    ONE HUNDRED FOURTEENTH CONGRESS
                             FIRST SESSION

                  JAMES M. INHOFE, Oklahoma, Chairman
DAVID VITTER, Louisiana              BARBARA BOXER, California
JOHN BARRASSO, Wyoming               THOMAS R. CARPER, Delaware
SHELLEY MOORE CAPITO, West Virginia  BENJAMIN L. CARDIN, Maryland
MIKE CRAPO, Idaho                    BERNARD SANDERS, Vermont
JOHN BOOZMAN, Arkansas               SHELDON WHITEHOUSE, Rhode Island
JEFF SESSIONS, Alabama               JEFF MERKLEY, Oregon
ROGER WICKER, Mississippi            KIRSTEN GILLIBRAND, New York
DEB FISCHER, Nebraska                CORY A. BOOKER, New Jersey
MIKE ROUNDS, South Dakota            EDWARD J. MARKEY, Massachusetts
DAN SULLIVAN, Alaska

                 Ryan Jackson, Majority Staff Director
               Bettina Poirier, Democratic Staff Director
                              ----------                              

             Subcommittee on Superfund, Waste Management, 
                        and Regulatory Oversight

                  MIKE ROUNDS, South Dakota, Chairman
DAVID VITTER, Louisiana              EDWARD J. MARKEY, Massachusetts
MIKE CRAPO, Idaho                    THOMAS R. CARPER, Delaware
JOHN BOOZMAN, Arkansas               JEFF MERKLEY, Oregon
DAN SULLIVAN, Alaska                 CORY A. BOOKER, New Jersey
JAMES M. INHOFE, Oklahoma (ex        BARBARA BOXER, California (ex 
    officio)                             officio)
    
    
    
    
    
                                   (II)
    
    
    
    
                            C O N T E N T S

                              ----------                              
                                                                   Page

                              MAY 20, 2015
                           OPENING STATEMENTS

Rounds, Hon. Mike, U.S. Senator from the State of South Dakota...     1
Markey, Hon. Edward J., U.S. Senator from the State of 
  Massachusetts..................................................     3
Boozman, Hon. John, U.S. Senator from the State of Arkansas......     9

                               WITNESSES

McClellan, Roger O., Advisor, Toxicology and Human Health Risk 
  Analysis.......................................................    11
    Prepared statement...........................................    13
Hadzi-Antich, Ted, Senior Staff Attorney, Pacific Legal 
  Foundation.....................................................    25
    Prepared statement...........................................    27
Gomez, Alfredo, Director, Natural Resources and Environment Team, 
  U.S. Government Accountability Office..........................    30
    Prepared statement...........................................    32
Yosie, Terry, President and CEO, World Environment Center........    48
    Prepared statement...........................................    50
Faber, Scott, Senior Vice President, Government Affairs, 
  Environmental Working Group....................................    55
    Prepared statement...........................................    57
    
    
    
    
    
    
    
                              (III)


 OVERSIGHT HEARING ON SCIENTIFIC ADVISORY PANELS AND PROCESSES AT THE 
ENVIRONMENTAL PROTECTION AGENCY AND LEGISLATIVE HEARING ON S. 543, THE 
               SCIENCE ADVISORY BOARD REFORM ACT OF 2015

                              ----------                              


                        WEDNESDAY, MAY 20, 2015

                               U.S. Senate,
         Committee on Environment and Public Works,
              Subcommittee on Superfund, Waste Management, 
                                  and Regulatory Oversight,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 9:34 a.m. in 
room 406, Dirksen Senate Building, Hon. Mike Rounds (chairman 
of the subcommittee) presiding.
    Present: Senators Rounds, Crapo, Boozman, Fischer, Inhofe, 
Markey, and Booker.

            OPENING STATEMENT OF HON. MIKE ROUNDS, 
          U.S. SENATOR FROM THE STATE OF SOUTH DAKOTA

    Senator Rounds. Good morning, everyone.
    The Environment and Public Works Subcommittee on Superfund, 
Waste Management, and Regulatory Oversight is meeting today to 
conduct an oversight hearing on Scientific Advisory Panels and 
Processes at the Environmental Protection Agency and 
Legislative Hearing on S. 543, the Science Advisory Board 
Reform Act of 2015.
    The Environmental Protection Agency is tasked with 
developing environmental regulations that impact every American 
in every State across the entire Country. These regulations 
affect the water we drink, the air we breathe and the land we 
use.
    The EPA has affirmed science is to be ``the backbone of EPA 
decisionmaking.'' The Science Advisory Board and the Clean Air 
Scientific Advisory Committee, which are made up of scientific 
experts, are to supply the EPA with independent scientific and 
technical advice on a wide range of topics, from hydraulic 
fracturing, to ozone emissions, to stream and wetland 
connectivity. The EPA is to rely on this advice to assist them 
in crafting and issuing appropriate environmental regulations.
    Unfortunately, in recent years EPA regulations have been 
driven not by science but by politics. The EPA has not 
submitted critical agency science or technical information to 
the Science Advisory Board for review prior to implementing 
major regulations such as greenhouse gas rules for cars and 
trucks, new source performance standards for coal-fired power 
plants, and ozone regulations, despite statutory authority to 
do so.
    Rather than allowing the science to drive the regulations, 
the EPA is carrying out the Administration's political agenda 
through regulations with questionable science supporting them. 
For example, at an Environment and Public Works subcommittee 
hearing yesterday, we heard testimony that the EPA focused on 
the wrong issues when requesting the SAB to review an EPA-led 
study that became a scientific foundation for the overly 
burdensome Waters of the U.S. Rule that is due out in the near 
future. EPA, to achieve its goal of expanding jurisdiction, 
made the science fit into their preplanned agenda and the 
result will be a tremendous example of Federal overreach.
    In addition, due to not using proper science to begin with, 
as reported yesterday by the New York Times, the EPA engaged in 
its own lobbying campaign, under a questionable legal basis, to 
garner support for this rule.
    Despite the fact that the SAB is to be an independent body 
that provides independent advice to the EPA, many SAB members 
are receiving EPA grants, which not only lends itself to 
conflict of interest issues, but also ties the hands of SAB 
members who may not be inclined to provide dissenting views or 
disagree with agency science.
    When members do disagree with EPA science, there is little 
opportunity for members to express dissenting views. We have 
also seen many instances in which members of these boards are 
reviewing their own scientific work without recusing 
themselves.
    This diminishes any possibility that these boards will 
offer a truly impartial opinion regarding the validity of the 
science EPA is relying on. For example, a recent CASAC review 
showed that 21 of 25 panelists had their own work cited by the 
EPA and meeting minutes did not note a single recusal.
    Further, there is little opportunity for public 
participation or comments in these scientific reviews and there 
is minimal State, local and tribal representation on these 
boards. The 47-member chartered SAB includes only three members 
from two States--California and Vermont. Additionally, the 
panels tasked with advising the EPA on hydraulic fracturing and 
water body connectivity did not include representatives from 
any States.
    As a result of these reviews, the EPA implements 
regulations that affect the entire Country, yet there is 
minimal State participation on these boards and when there is, 
the vast majority of the Country remains unrepresented.
    S. 543, the Science Advisory Board Reform Act of 2015, aims 
to address these problems by inserting more transparency and 
accountability in the SAB process. If passed, it will allow for 
more public participation in the SAB review process, more 
accountability for the members of the board, and provide for 
more transparency for Congress and the public regarding the 
science behind EPA regulations.
    The EPA should rely on the most up-to-date and sound 
science as the foundation for every regulation implemented by 
the agency. It is vital that this scientific review process be 
done in a transparent manner, undertaken by experts who can 
provide an impartial and independent opinion, and with 
sufficient representation by those who would be affected by 
these regulations.
    I would like to thank our witnesses for taking the time to 
be with us today and I look forward to hearing your testimony.
    I would like to recognize my friend, Senator Markey, for a 
5-minute opening statement.

          OPENING STATEMENT OF HON. EDWARD J. MARKEY, 
          U.S. SENATOR FROM THE STATE OF MASSACHUSETTS

    Senator Markey. I thank you, Mr. Chairman. Thank you for 
calling today's hearing to discuss EPA scientific advisory 
panels and scientific processes.
    I would like to start by embarking on a little scientific 
journey through time without the help of quantum mechanics. In 
the 17th century, Galileo proved that the sun, not the earth, 
was at the center of the solar system. This revelation was, to 
put it mildly, not welcomed by society. Galileo was tried and 
convicted of heresy and sentenced to life under house arrest.
    In 1992, more than 350 years later, after Galileo's 
condemnation, Pope John Paul II acquitted the father of science 
from his erroneous conviction.
    Similarly, in the 19th century, Charles Darwin proposed the 
theory of evolution and was condemned for his findings. In 
2008, in honor of Darwin's 200th birthday, the Church of 
England issued an apology saying that ``when a big new idea 
emerges which changes the way people look at the world, it is 
easy to feel that every bold idea, every certainty is under 
attack and then to do battle against the new insights.''
    History's shoot-the-messenger approach to scientific 
discovery has evolved over time. Now political scientists in 
Washington are experimenting with new ways to use science as a 
weapon to thwart actions to protect public health and the 
environment.
    In this century for example, my staff wrote a report on how 
the Bush administration dismissed academic experts from serving 
on the Center for Disease Control Scientific Advisory Panel 
charged with recommending safe blood lead levels for infants 
and replaced them with expert witnesses for the lead and paint 
industries.
    A wide range of the regulations that keep us safe, from the 
food we eat to the technology we use to the air that we 
breathe, requires scientific guidance. In 1978, Congress 
created EPA's Scientific Advisory Board to provide just that.
    Unfortunately, the Science Advisory Board Reform Act of 
2015 will cripple the scientific process at the EPA. Quite 
simply, this bill is a solution in search of a problem. For 
example, EPA currently reviews potential financial conflicts of 
interest for board members privately, the same way that it is 
done for most of the Federal advisory committees.
    This bill requires that board members' personal financial 
information, which could include information in their tax 
returns or information about their family's finances be made 
publicly available.
    Some say this is a needed transparency measure but I note 
this provision could result in the mandatory public disclosure 
of more information than even United States Senators are 
required to make. This provision will have a chilling effect on 
the participation of qualified scientists.
    The bill would also require that the board provide written 
response to public comments it receives on its work. Since 
current law prevents the board from considering any public 
comments without holding a public meeting, the board could be 
forced into indefinite public meetings to address comments 
which then generate more public comments that require more 
public meetings without ever getting to finish their scientific 
report.
    This bill also changes the board's membership. Currently, 
membership is based solely on scientific expertise. The bill 
would require EPA to consider where experts work, not just what 
they know.
    I would also like to note that the committee marked up S. 
544, the Secret Science Reform Act of 2015, before even holding 
a hearing on the topic and over the objections of every 
Democrat on the committee.
    In any credible scientific process, the conclusions are 
made after you do the experiment, so the committee got it 
exactly backward. Let us not get it backward with EPA's 
Scientific Advisory Board as well.
    We might not agree on the regulations that EPA proposes, 
but we should all be able to agree that the scientists should 
be free to provide advice without onerous requirements and 
restrictions.
    Finally, I ask unanimous consent that letters from the 
Union of Concerned Scientists and the American Lung Association 
be included in the record.
    Senator Rounds. Without objection.
    [The referenced information follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    Senator Markey. I look forward to hearing from the 
witnesses and I yield back the balance of my time.
    Senator Rounds. Thank you, Senator Markey. We appreciate 
your sharing of your thoughts.
    I would now like to recognize Senator Boozman for a 
statement on his legislation, S. 543, the Science Advisory 
Board Reform Act of 2015.
    Senator Boozman.

            OPENING STATEMENT OF HON. JOHN BOOZMAN, 
            U.S. SENATOR FROM THE STATE OF ARKANSAS

    Senator Boozman. Thank you, Chairman Rounds and Ranking 
Member Markey, very much for holding this hearing.
    Thank you for being here to testify and participate with 
your comments.
    Senator Manchin could not join us today. He and I 
introduced the Science Advisory Board Reform Act earlier this 
year. However, rather than provide an individual statement, I 
would like to read a joint statement that Senator Manchin and I 
prepared together.
    Again, I want to thank Senator Manchin and his staff. They 
work very, very hard to solve problems on a bipartisan basis.
    With that, we believe that work to conserve the environment 
and protect human health should be science-based. Science is a 
vital tool to inform policymakers. When science is used to 
justify environmental policy, it must be verifiable and 
developed through an open and well structured process.
    For these reasons, we have introduced the Science and 
Advisory Order Format. Our legislation will make modest 
improvements to the EPA science and advisory process. Our bill 
provides limited reforms. We hope our efforts will achieve 
further bipartisan support. That certainly is our goal.
    S. 543 takes the following modest steps. First, it 
increases transparency. Specifically, it allows the public to 
submit comments on Science Advisory Board activities through an 
open process.
    Second, our bill enables expanded board reviews, 
particularly of the risk or hazard assessments that are 
important to determine which potential regulations are needed 
most.
    Third, our bill also standardizes the SAB member selection 
process. Specifically, the standardized process is based on 
structures that are laid out in the Federal Advisory Committee 
Act, the EPA's Peer Review Handbook and the National Academy's 
Policy on Committee Composition and Balancing Conflicts of 
Interest.
    Fourth, our bill also ensures that any dissenting views on 
review panels are not silenced.
    Fifth, our bill limits non-scientific policy advice from 
the Science Advisory Board.
    Finally, it increases SAB disclosures in an effort to 
reduce conflicts of interest.
    The bottom line is that the EPA, at times, provides for 
excellent scientific reviews. Other times, there are gaps in 
the process. Sometimes the review process is entirely bypassed 
or ignored.
    We believe that enabling public comments and protecting 
dissenting views is important to make sure that the board 
becomes aware of its own blind spots. Standardizing the process 
will ensure that excellent scientific reviews are reinforced 
and consistently carried out.
    We believe the principles behind these reforms can be 
broadly supported. We are open to suggestions on how the bill 
can be improved. We want the final product to draw substantial 
support from both Democrats and Republicans because we are 
simply working to improve the process.
    In fact, we have already accepted some criticisms and made 
changes. An earlier version prohibited board members from 
participating in advisory activities that directly or 
indirectly involved review or evaluation of their own work.
    This provision was criticized as too broad since many items 
before the board are highly technical. Since prohibiting 
participation by certain members could create blind spots, we 
have amended the current version to allow such board members to 
participate as long as they fully disclose their involvement in 
the underlying work and as long as the work has been externally 
peer-reviewed.
    This is an example of our determination to work in good 
faith and to make this bill as good as it can be. We hope our 
colleagues in both parties will be willing to engage in this 
legislation process so that we can advance a final bipartisan 
bill to the President's desk that can be signed into law.
    Whether we are dealing with a Republican Administration or 
a Democratic Administration, many Americans feel uncertain that 
the regulatory process involves an adequately credible 
scientific review. We would all benefit from reforms to 
increase the credibility of the process.
    On one final note, we strongly believe the Science Advisory 
Board is made up of highly dedicated, hardworking and skilled 
scientists. They provide their expertise to the EPA and provide 
a vital service to the public. Their work is often thankless.
    Our legislation is intended to help these dedicated 
professionals perform their vital tasks independently and to 
improve the credibility of the agency.
    With that, we thank the Chairman and Ranking Member for 
today's hearing and we look forward to considering the 
testimony of the witnesses. Thank you, Mr. Chairman and Ranking 
Member.
    Senator Rounds. Thank you, Senator Boozman.
    Our witnesses joining us for today's hearing are: Dr. Roger 
O. McClellan, Advisor, Toxicology and Human Health Risk 
Analysis; Ted Hadzi-Antich, Senior Staff Attorney, Pacific 
Legal Foundation; Alfredo Gomez, Director, Natural Resources 
and Environment Team, U.S. Government Accountability Office; 
Dr. Terry Yosie, President & CEO, World Environment Center; and 
Scott Faber, Vice President, Government Affairs, Environmental 
Working Group.
    Now we will turn to our first witness, Mr. Roger McClellan, 
for 5 minutes. Mr. McClellan, you may begin.
    Senator Inhofe. Mr. Chairman, let me interrupt for a moment 
to say a special welcome to Dr. McClellan. The last time he was 
here was when I had your job and I was sitting there as 
chairman of this subcommittee. It was in 1997. Welcome back.

STATEMENT OF ROGER O. McCLELLAN, ADVISOR, TOXICOLOGY AND HUMAN 
                      HEALTH RISK ANALYSIS

    Mr. McClellan. Thank you very much. Good morning, Mr. 
Chairman and members of the subcommittee.
    Thank you for the invitation to present my views on the 
importance of independent scientific advice to inform policy 
decisions to the Environmental Protection Agency and the 
importance of an efficient and effective Science Advisory 
Board.
    I request that my complete written testimony be entered in 
the record as though read in its entirety.
    By way of background, I have had a multifaceted career 
focusing on conduct and management of what I call issue 
resolving scientific research. A major portion of my career was 
spent providing leadership for two organizations, one funded 
primarily by the Federal Government and the second funded 
primarily by the chemical industry.
    Recently, I have served as an advisory to public and 
private organizations on issues related to the impact of air 
quality on health.
    Throughout my career, I have served on numerous advisory 
committees for government agencies, academic institutions, 
private organizations, including service on more than two dozen 
EPA committees. The independent views I relate today draw on 
that experience. Let me summarize my views.
    First, sound, independent, scientific advice from competent 
scientists outside of organization is critical to the 
successful functioning of any science-based enterprise 
operating in the public or private sector, including the U.S. 
Environmental Protection Agency.
    The EPA Science Advisory Board is a primary vehicle for the 
agency to obtain that kind of independent, scientific advice.
    Two, the EPA's approach to creating and using scientific 
advisory committees and panels has continued to change over the 
45-plus year history of the agency. Yet, I see numerous 
opportunities for further improving the efficiency and 
effectiveness of the Science Advisory Board.
    Three, the scientific basis for all major EPA policies and 
regulations should be reviewed by the SAB. However, the SAB's 
mission should be sufficiently broad that it has the authority, 
which it should exercise from time to time, to offer scientific 
advice on issues identified by the SAB independent of requests 
from the agency.
    Four, while scientific knowledge should inform all of EPA's 
policies and regulations, it should be recognized by 
scientists, policymakers, legislators and the public that 
policies and regulations are ultimately policy judgments. They 
are often not dictated by the science alone but rather informed 
by it as there is often a range of justifiable policy decisions 
the regulator can make.
    Five, the agency should strive to obtain the best possible 
evaluation of the strengths and the weaknesses of the 
scientific evidence relating to the issue at hand and should 
avoid placing undue emphasis and pressure on seeking consensus.
    In my opinion, consensus is a social phenomenon grounded in 
ideology and is not always well suited to dealing with 
scientific issues.
    Sixth, selection for service on the SAB or as a consultant 
should be based on the scientific credentials of the nominees 
without respect to their potential views or the policy or 
regulatory outcome on the issue being addressed. To date, the 
agency has focused on recruiting academic scientists and left 
untapped a large, large pool of highly competent individuals 
employed in the private sector.
    Seven, all SAB activities should be transparent and open to 
the diverse public. The SAB does play a vital role in providing 
a forum for the public.
    Eight, further improvements in EPA's advisory committee 
process should be built on a broad review of past EPA advisory 
committee activities and operations, both successes and 
failures.
    Nine is the identification of best practices used by EPA, 
as well as other public and private organizations, a review of 
how the agency uses advice and input from the public and 
careful attention to how SAB members and consultants are 
appointed.
    All processes should be transparent and individuals 
appointed based on their scientific credentials and the absence 
of any bias as to the potential policy or regulatory outcome of 
the issue at hand.
    In my opinion, the proposed legislation is a positive step 
in the right direction to enhance EPA's SAB role in ensuring 
the quality of scientific information used to inform EPA's 
policies and regulations that impact the well being of every 
American.
    It is most important that changes resulting from 
legislation and equally important, that more rigorous EPA 
management focus on ensuring the transparency of the process 
that provides sound scientific advice to inform policy 
decisions and regulations with meaningful participation from 
all sectors of the U.S. economy.
    I will be pleased to address any questions or comments 
later in the session.
    Thank you very much for your attention.
    [The prepared statement of Mr. McClellan follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Rounds. Thank you, Dr. McClellan.
    Now, we will hear from Mr. Ted Hadzi-Antich. You may begin.

 STATEMENT OF TED HADZI-ANTICH, SENIOR STAFF ATTORNEY, PACIFIC 
                        LEGAL FOUNDATION

    Mr. Hadzi-Antich. Thank you.
    Good morning, Mr. Chairman and other distinguished members 
of the subcommittee.
    My name is Ted Hadzi-Antich. I am a senior attorney with 
the Pacific Legal Foundation, a nonprofit organization 
dedicated to protecting individual liberty, property rights, 
and a balanced approach to environmental regulation.
    I have been practicing environmental law for about 40 
years. I have a good understanding of EPA's regulatory 
policies, including, for purposes of this testimony, EPA's 
interaction with the Science Advisory Board.
    In my view, EPA is not using the board effectively, 
efficiently, or even wisely. Congress enacted the SAB organic 
statute in the 1970s to deal with public criticism that EPA's 
regulatory proposals lacked scientific and technical 
credibility. It created the board to provide an expert peer 
review looking at the science undergirding regulatory proposals 
by EPA.
    Under the current statute, certain regulatory proposals 
must be submitted by EPA to the board for peer review, but the 
board, itself, has no responsibility to respond in any 
particular way to any particular regulatory proposal.
    This issue really came to a head, in my view, starting in 
2009 when EPA promulgated the first suite of greenhouse gas 
emission regulations under the Clean Air Act, including 
emission regulations for carbon dioxide.
    Carbon dioxide is a ubiquitous natural substance. It is 
everywhere and it is in everything. When EPA started regulating 
carbon dioxide, it opened the door for Federal regulation of 
everything, everywhere in the Nation. That is a tremendous 
power for a Federal administrative agency to have.
    The first suite of EPA regulations was promulgated without 
any input from the Science Advisory Board. As a matter of fact, 
EPA did not even submit the proposed rules to the Science 
Advisory Board to receive their review and comment.
    After promulgating those regulations, EPA took the position 
that it does not have to submit any proposed rule to the 
Science Advisory Board unless there is an independent Federal 
statute other than the SAB organic statute that requires EPA to 
submit a regulatory proposal to another Federal agency as part 
of interagency interaction, and then only if, with regard to 
regulations under the Clean Air Act, there is a substantial 
likelihood that the regulation would have been significantly 
changed, if SAB were given the opportunity to review it.
    These two policy decisions by the EPA, which add a veneer 
to the SAB organic statute, especially in the context of 
important regulations like carbon dioxide emissions, really 
undercut the very purpose of the SAB peer review requirement.
    I think S. 543 goes a long way to deal with these 
situations. My recommendation is to consider three overarching 
issues in connection with the SAB review process.
    One, every proposed regulation that EPA is required to 
publish in the Federal Register under the Administrative 
Procedures Act should be required to be submitted to the SAB 
for peer review.
    Two, when EPA fails to comply with the SAB submittal 
requirement, that failure should be judicially reviewable under 
the standard provisions of the Administrative Procedures Act.
    Three, with regard to the most important regulations 
governing the Nation as a whole, such as carbon dioxide, which 
impacts not only the national economy but pretty much every 
aspect of the national life, with regard to those regulations, 
SAB should be given the duty to respond in some appropriate way 
to the proposed regulation.
    Thank you very much for the opportunity to provide this 
testimony.
    [The prepared statement of Mr. Hadzi-Antich follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Rounds. Thank you for your testimony, Mr. Hadzi-
Antich. We appreciate your testimony.
    Our next witness is Mr. Alfredo Gomez from GAO. Mr. Gomez, 
you may begin.

  STATEMENT OF ALFREDO GOMEZ, DIRECTOR, NATURAL RESOURCES AND 
    ENVIRONMENT TEAM, U.S. GOVERNMENT ACCOUNTABILITY OFFICE

    Mr. Gomez. Thank you, Chairman Rounds, Ranking Member 
Markey and members of the subcommittee.
    Good morning. I am pleased to be here today to discuss two 
Federal advisory bodies that review the scientific and 
technical basis for EPA decisionmaking. These are EPA's Science 
Advisory Board, which, as already noted, is authorized to 
review the adequacy of the scientific and technical basis of 
EPA's proposed regulations and the Clean Air Scientific 
Advisory Committee, which provides independent advice to EPA on 
air quality criteria.
    My statement today summarizes preliminary observations from 
our ongoing work on which we plan to complete and issue a 
report in June 2015. I will focus on two main areas.
    The first area is EPA's process for responding to 
congressional requests to the SAB and two, the extent to which 
CASAC has provided advice related to air quality standards.
    The Environmental Research Development and Demonstration 
Authorization Act of 1978 requires the SAB to provide the EPA 
Administrator with scientific advice and to also provide 
scientific advice to designated congressional committees when 
requested.
    CASAC is required to provide advice to the EPA 
Administrator with regard to EPA's national ambient air quality 
standards. The Clean Air Act requires EPA to set and 
periodically review and revise the air quality standards for 
certain air pollutants.
    As Federal advisory committees, both the SAB and CASAC are 
subject to the Federal Advisory Committee Act. The head of each 
agency that uses Federal advisory committees is responsible for 
exercising certain controls over those committees.
    For example, the EPA Administrator is responsible for 
establishing administrative guidelines and management controls 
that apply to all of the agency's advisory committees and for 
appointing a designated Federal officer for each advisory 
committee.
    As required by FACA, the SAB and CASAC operate under 
charters that include information on their objectives, scope of 
activities and the officials to whom they report.
    Regarding the first area of our study, our preliminary 
observations indicate that EPA's policies and procedures for 
processing congressional requests to the SAB do not ensure 
compliance with ERDDAA because the procedures are incomplete.
    While these documents provide some direction for how EPA 
and the SAB are to process requests from congressional 
committees, the documents do not clearly outline how the EPA 
Administrator, the SAB staff office and members of the SAB 
panel are to handle a congressional committee's request for 
advice from the SAB.
    EPA's policies and procedures lack clarity. Specifically, 
they do not clearly acknowledge that the SAB must provide 
scientific advice when requested by select congressional 
committees, nor state which of two offices should process the 
request. Finally, they do not clearly establish procedures for 
determining questions the SAB would answer.
    Second, regarding the extent to which CASAC has provided 
advice related to air quality standards, our preliminary 
observations indicate CASAC has provided certain types of 
advice related to the review of national ambient air quality 
standards.
    According to a senior EPA official, CASAC has carried out 
its role in reviewing the air quality criteria and the air 
quality standards as required by the Clean Air Act. However, 
CASAC has never provided advice on adverse social, economic or 
energy effects of strategies to implement the air quality 
standards.
    This is, in part, because, according to the law, air 
quality standards are to be based on public health and welfare 
criteria rather than on the social, economic or energy effects. 
In addition, EPA has never asked CASAC to do such a review.
    In summary, EPA has developed additional policy documents 
to try to help clarify how to process congressional requests to 
the SAB but some questions remain about that process that could 
affect the SAB's compliance with ERDDAA.
    Chairman Rounds, Ranking Member Markey and members of the 
subcommittee, this completes my statement. I would be happy to 
respond to any questions.
    [The prepared statement of Mr. Gomez follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    Senator Rounds. Thank you, Mr. Gomez.
    We will now hear from our next witness, Dr. Terry Yosie. 
Dr. Yosie, you may begin.

STATEMENT OF TERRY YOSIE, PRESIDENT AND CEO, WORLD ENVIRONMENT 
                             CENTER

    Mr. Yosie. Thank you, Mr. Chairman, for the opportunity to 
testify today on the issue of the management of scientific 
advisory panels at the U.S. Environmental Protection Agency.
    I appear today in a personal capacity as my employer, the 
World Environment Center, is a non-profit organization that 
conducts no advocacy activities.
    My comments today will reflect several career experiences. 
From 1981 through 1988, I served as the Director of EPA's 
Science Advisory Board during the Administration of Ronald 
Reagan. I later served as Vice President for Health and 
Environment at the American Petroleum Institute and also as 
Vice President for Environment, Health, Safety and Security at 
the American Chemistry Council.
    Effective management of scientific advisory processes at 
EPA should embody several important principles. These 
principles include the following.
    The advice provided by scientific advisory committees 
should only be advisory in nature. In practice, this means that 
advisory committee reports should be explicitly taken into 
account during the policymaking process but they are not 
binding.
    Second, appointments to scientific advisory panels should 
be made on the basis of merit rather than institutional 
affiliation or quotas. In 1982, President Ronald Reagan vetoed 
legislation that would have undermined this principle by 
requiring that appointments to EPA's Science Advisory Board be 
based on representation of specific interests rather than 
scientific merit.
    If I may quote President Reagan, ``this requirement runs 
counter to the basic premise of modern scientific thought as an 
objective undertaking. The purpose of the Science Advisory 
Board is to apply the universally accepted principles of 
scientific peer review to the research conclusions that will 
form the basis for EPA regulations, a function that must remain 
above interest group politics.''
    I believe that President Reagan's words echo across the 
decades and are directly relevant to the discussion we are 
having today.
    Third, scientists can never answer all of the scientific 
questions, but they can and must help policymakers focus on the 
important scientific questions.
    Fourth, most potential conflict of interest issues can be 
resolved by an appropriate level of transparency, but not all 
of them. I personally would take a dim view of any scientist 
who refuses to disclose the source of his or her research 
funding or who believes there is no conflict issue in reviewing 
one's own published work that may have an important bearing in 
a risk assessment.
    On the other hand, I believe that scientists from industry, 
environmental groups and other institutions have important 
expertise that needs to be represented on scientific advisory 
panels. So long as no single interest group has 
disproportionate representation on an advisory committee and 
has representatives that qualify for appointment based on 
merit, I believe the Federal Advisory Committee Act's 
requirement for ``balanced points of view'' can be effectively 
met.
    Fifth, priorities for peer review panels should remain 
focused on research and scientific assessment.
    Sixth, scientists are under no obligation to serve on 
scientific advisory panels. Adding further non-scientific 
responsibilities to peer review panels will make the 
recruitment of qualified, independent scientists even more 
difficult.
    With these principles in mind, I have several specific 
comments to offer regarding S. 543. They include the following.
    Section 2(B) states that ``at least 10 percent of the 
membership of the board are from State, local or tribal 
governments.'' This is similar to a provision that was the 
basis for President Reagan's veto of similar legislation in 
1982.
    The proposed legislation substitutes a quota for merit as 
the basis for a significant percentage of advisory committee 
appointments. In practice, this will distort the peer review 
process.
    Section 3(D) of S. 543 requires the filing of a ``written 
report disclosing financial relationships and interests'' 
including EPA grants and contracts. This is appropriate but in 
addition, it is important not only to disclose EPA grants, but 
also grants or contracts supported by other Federal agencies, 
private industry or other institutions.
    The proposed legislation would also require that public 
comments during Science Advisory Board reviews ``shall not be 
limited by an insufficient or arbitrary time restrictions.'' By 
providing for unlimited time for public comments, S. 543 
creates the perverse incentive of driving scientific advisory 
panels away from their focus on the underlying science and 
toward a role of referee among competing interest groups. I 
believe this provision of S. 543 should be removed.
    In summary, as I reviewed the provisions of this bill, I am 
having a tremendous case of deja vu that recalls my experience 
as Director of the Science Advisory Board during President 
Ronald Reagan's administration.
    Then, as now, Congress proposed legislation that 
substituted quotas for scientific merit in the appointment of 
advisory committee members. Then, as now, proposed legislation 
would add burdensome new requirements to the operation of 
scientific advisory panels that compete with and diminish their 
ability to focus on their core purpose which is to provide 
independent evaluation of the quality of research and the 
scientific basis of proposed criteria, risk assessments and 
proposed standards.
    Mr. Chairman, enactment of this proposed legislation will 
waste taxpayer dollars and further divert the focus away from 
the critical need of ensuring that scientific advisory panels 
advising the EPA deliver qualified, timely and effective 
scientific advice.
    Thank you for the opportunity to testify and I will be 
pleased to answer any questions.
    [The prepared statement of Mr. Yosie follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   
    
    Senator Rounds. Thank you, Dr. Yosie.
    Our next witness is Mr. Scott Faber. Mr. Faber, you may 
begin.

  STATEMENT OF SCOTT FABER, SENIOR VICE PRESIDENT, GOVERNMENT 
              AFFAIRS, ENVIRONMENTAL WORKING GROUP

    Mr. Faber. Thank you, Mr. Chairman. And thank you for the 
opportunity to testify.
    By providing independent advice to the EPA Administrator, 
the Science Advisory Board has played a unique role in 
environmental protection for more than three decades. It is 
important to remember that the SAB is primarily focused on 
technical issues, not policy issues, and does not make risk 
management or regulatory decisions.
    Its role is limited to offering advice on the scientific 
and technical basis upon which the agency makes its risk 
management and regulatory decisions. The SAB makes 
recommendations that are grounded in science, not politics.
    We are concerned that S. 543 could inject politics and in 
some cases, delay into the Board's scientific and technical 
deliberations.
    First, S. 543 would place the affiliation of potential 
Board members ahead of their scientific qualifications by 
establishing a quota for representatives of State, local and 
tribal governments. SAB members are called upon to provide 
their technical and professional expertise, not to represent 
the views of any particular agency or organization. By creating 
such a quota system, S. 543 could undermine the integrity of 
the SAB and the original intent of Congress.
    Second, S. 543 would allow the appointment of Board members 
who have potential financial conflicts of interest, so long as 
those interests are disclosed. Under current law, EPA carefully 
evaluates the potential conflicts of interest of all Board 
members in accordance with FACA, which does permits waivers in 
some cases, and with the ethics requirements of FACA.
    Like the quota system described in Section 2(b)(2)(B) of S. 
543, a provision permitting Board members with conflicts would 
undermine the integrity, and potentially the impartiality, of 
SAB reviews.
    Third, S. 543 would discourage qualified experts from 
agreeing to serve on the Board. In particular, Section 
2(b)(3)(D) would have a chilling effect on participation by 
requiring public disclosure of SAB members' private financial 
information.
    Fourth, S. 543 would create significant new and unnecessary 
burdens on the Board. In particular, S. 543 would require the 
SAB to provide written responses to all public comments, which 
in some cases can number more than 100,000 comments.
    In addition, S. 543 would extend the public comment period 
beyond a Board meeting, even though FACA prevents the board 
from considering such comments without holding yet another 
public meeting.
    This could create an endless cycle of meetings and comments 
that would ultimately impede and delay the Board's ability to 
provide the Administrator with its scientific and technical 
advice.
    I am sure that the advocates for S. 543 intended this bill 
to increase transparency, empower scientists, avoid conflicts 
of interest and enhance the Board's scientific integrity. How, 
FACA already provides important safeguards that prevent these 
conflicts of interest and ensure public access and input to the 
SAB's deliberations.
    In summary, we are concerned the provisions of S. 543 would 
undermine the SAB's scientific integrity by making Board 
membership subject to organizational affiliation rather than 
merit; by increasing, not reducing, financial conflicts of 
interest; and by creating a needless cycle of meetings and 
comments that will only serve to delay action.
    Like S. 544, the so-called Secret Science Reform Act of 
2015, we are concerned that S. 543 could delay and ultimately 
deny to EPA the ability to improve air and water quality for 
all Americans.
    In particular, S. 544 would sharply limit the science EPA 
can rely on by prohibiting the use of studies based on private 
health data, proprietary models and confidential business 
information.
    S. 544 would also prohibit the use of long-term studies, 
workplace exposure studies, oil and chemical spill studies, and 
other research that is difficult or impractical to 
``reproduce'' but that provides critical information about 
health effects.
    What is more, S. 544 creates a troubling double standard by 
restricting the use of such studies in actions designed to 
protect public health but permitting them in actions that 
benefit industry, such as permit approvals and chemical 
registrations.
    Taken together, we are concerned these bills would 
needlessly limit EPA's ability to rely upon basic science and 
needlessly limit the agency's ability to subject scientific and 
technical questions to review by the Science Advisory Board.
    Thank you for the opportunity to testify.
    [The prepared statement of Mr. Faber follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    Senator Rounds. Thank you for your testimony, Mr. Faber.
    The Senators will now each have 5 minutes for questions. I 
will begin.
    Mr. Gomez, under ERDDAA, the Science Advisory Board is 
required to be responsive to congressional requests for 
scientific advice. You note that the EPA does not have 
documented procedures for reviewing congressional requests.
    When Congress submits requests to the SAB, the SAB should 
acknowledge the request and reply that the EPA will provide a 
response.
    How does this lack of a clear process and reliance on EPA 
to respond to Congress affect the SAB's ability to provide 
Congress with an independent response to their request?
    Mr. Gomez. The SAB is required under ERDDAA to provide 
scientific advice to congressional committees that request it. 
As you noted, we said in my statement that EPA does not have 
complete procedures and it is not clear exactly how who should 
do it or which office.
    We also in our report have a graphic that shows what the 
status is of these two requests that have come through. In one 
case, EPA's office did acknowledge the receipt of the request 
and then 7 months later, it also noted the remaining questions 
that had not been answered.
    There were 14 questions in total in the initial response. 
Three were answered. EPA then said there was a previous report 
that had addressed some of the themes of that request. That is 
not complete yet, so EPA has noted that if there are other 
questions, it will have to wait until one of the draft reports 
EPA is doing is completed before the SAB can take up that 
question.
    Senator Rounds. Part of our role here in an oversight 
capacity is to find ways in which the EPA could perhaps do a 
better job of being more transparent with their dealings with 
the Science Advisory Board.
    Do you have any recommendations with regards to how that 
process should work when we have requests such as from Congress 
where the EPA is literally the location where we will get the 
data back but the request is to the SAB? Can you talk about 
that a little bit? Is there a process that needs to be fixed?
    Mr. Gomez. Definitely, it is very much about transparency. 
What we found is that when a request comes over, it was not 
clear who was to respond. In one case, it was the SAB staff 
office. In another case, it was EPA's Office of Congressional 
and Intergovernmental Relations.
    We are looking to really make it clear, make the procedures 
clear in terms of how EPA is supposed to respond. EPA, under 
FACA, is required to manage the agenda of the SAB. We want that 
to be clear so that everyone can see who responds and what 
questions the SAB should take.
    EPA also has the ability to not only prioritize the 
requests, but also to sequence them so that it can provide a 
response because it is required under ERDDAA to do so.
    Senator Rounds. You note that there have been two formal 
requests from Congress asking for advice from the SAB. These 
were both made approximately 2 years ago. Both of them have to 
deal with issues relevant to the committee today, hydraulic 
fracturing and the soon to be released WOTUS Rule.
    My concern is that we are being confronted with these 
issues today, yet the SAB has not given Congress the relevant 
information were requested to investigate these issues in the 
first place.
    How do EPA regulations impact the ability of the SAB to 
respond to Congress in a timely manner? Are there specific 
guidelines and rules under which the EPA currently operates 
that restrict the SAB from being able to come back and provide 
that independent information?
    Mr. Gomez. With regards to the issue of timeframes, there 
is no requirement under ERDDAA that the SAB respond by a 
certain time. EPA, through FACA, is allowed to set the agendas 
and to prioritize what the SAB will take up. It can sequence 
those requests.
    To the extent that EPA has to balance the requests that it 
provides to the SAB, the charge questions that it provides, and 
then requests from Congress, as you have noted, can affect the 
timeliness of the response. That is something EPA has to 
balance.
    Senator Rounds. Thank you, sir.
    Senator Markey.
    Senator Markey. Thank you, Mr. Chairman.
    Dr. Yosie, in your testimony, you said this bill ``will 
waste taxpayer dollars and will further divert the focus away 
from the critical need of ensuring that scientific panels 
advising the EPA delivery qualified, timely and effective 
scientific advice.''
    You were the director of EPA's Science Advisory Board from 
1981 to 1988 during the Reagan administration. You made 
reference to this bill. But when President Reagan vetoed a 
similar bill in 1982, didn't his veto statement compare the 
premise of the bill to a Stalinist term called Lysenkoism, in 
which science is manipulated to reach a predetermined 
ideologically based conclusion?
    Mr. Yosie. The term to which you are referring, Lysenkoism, 
refers to a gentleman by that name who was Joseph Stalin's 
advisor who substituted Soviet ideology for replacing ordinary, 
well understood laws about biology and so forth.
    That terminology was used in the Reagan White House press 
release vetoing the bill that I referred to in my testimony.
    Senator Markey. Mr. Chairman, by unanimous consent, I would 
like to put President Reagan's veto statement in the record.
    Senator Rounds. Without objection.
    [The referenced information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
          
    
    Senator Markey. Thank you.
    This bill requires that 10 percent of Board members be from 
State, local and tribal governments. The Scientific Advisory 
Board does highly specialized work. For example, the Board is 
reviewing the safety of trimethylbenzene which is a byproduct 
of the petroleum refining process and ethylene oxide, which is 
used in the production of industrial chemicals.
    Might EPA have to select Board applicants who do not have 
the necessary scientific expertise if it has to meet quotas for 
certain types of applicants?
    Mr. Yosie. There are several comments I would make on that, 
Senator Markey.
    One is that if there is a 10 percent quota to have people 
from States, local governments or tribal areas represented on 
advisory committees, and if those representatives do not have 
the sufficient scientific understanding of the issues in 
review, that would require the Science Advisory Board to then 
probably add another 10 percent to the size of the advisory 
committee to compensate for the lack of expertise.
    To me that is not a theoretical exercise. I will give you a 
concrete example. During the Reagan administration, I was 
responsible for organizing the peer review of the risk 
assessment related to stratospheric ozone depletion, a serious 
global challenge. In fact, it was one of the most successful 
environmental agreements that had ever been implemented in 
history.
    Many of the compounds that were implicated in stratospheric 
ozone were called chlorofluorocarbons. They were phased out. 
There is now a substitute generation of compounds that are also 
now under review for health and environmental risks.
    As I look at the universe of the scientific community that 
has expertise in stratospheric ozone substitute chemicals, I am 
very skeptical that State or local governments or tribal areas 
are going to have the requisite knowledge on those issues.
    That is not to say that those organizations cannot be or 
should not be represented on many other important scientific 
reviews. Fracking is a good example of that. I think there are 
clearly a lot of State and local issues dealing with ozone 
standard development and State and local governments have 
technical experts on those matters.
    My concern is that by implementing an across the board 
quota for every single advisory panel of the Science Advisory 
Board, you will end up disproportionately increasing the size 
committee, adding people who do not understand the science and 
I think that is not a useful exercise in using taxpayer 
dollars.
    Senator Markey. Thank you, Dr. Yosie.
    Mr. Gomez, in GAO's opinion, did the EPA's Scientific 
Advisory Board comply with the law in its response to the House 
Science Committee's request?
    Mr. Gomez. EPA has not completed the response. It is 
required under ERDDAA to respond to the congressional 
committees. We have to wait and see.
    As I noted earlier, there is a partial response. EPA has 
indicated that it will address the questions in the future. We 
will have to wait and see. There are only two requests that 
have been sent through.
    Senator Markey. Thank you.
    Thank you, Mr. Chairman.
    Senator Rounds. Senator Inhofe.
    Senator Inhofe. Thank you, Mr. Chairman.
    I remember so well because I was there and would like to 
just review for a moment the chronology. First of all, we all 
remember Climategate. That came in November. Just a matter of 
hours after Climategate, which totally trashed the credibility 
of the IPCC, in fact there are several quotes. The London 
Telegraph called this perhaps the greatest scientific scandal 
of our time. I could read a lot of others but I do not have 
time to do that.
    That is what happened and right after that is when the 
Director, Lisa Jackson, in this very room when I asked her, you 
are going to have an endangerment finding and it has to be 
based on science. What science will you use? She said, the 
IPCC. I have all that in a transcript.
    It was kind of interesting because that was a matter of 
just hours after this scandal took place. With that in mind, 
Mr. Hadzi-Antich, in 2010, I requested an Inspector General 
investigation into the EPA's endangerment finding, what I just 
now described, the agency's basis for all of the climate 
regulation. This is the basis we have been working with.
    The IG reported the EPA did not follow proper peer review 
procedures and should have sent the findings to the SAB for 
review. Why do you suppose the SAB did not review the 
endangerment finding? Do you have any thoughts?
    Mr. Hadzi-Antich. Senator, that is the $64,000 question. 
When EPA promulgated the endangerment finding that carbon 
dioxide and other greenhouse gases pose a danger to human 
health and welfare, it did so without any input from the 
Science Advisory Board.
    Again, this was a regulation of national importance because 
carbon dioxide is everywhere and in everything. The EPA has 
never explained why it did not send such an important finding 
to the SAB before promulgating the regulation.
    Senator Inhofe. I have to stop you there. You have answered 
the question and I appreciate it very much.
    You probably agree with the statement made by Dr. Richard 
Lindzen of MIT when he said the regulation of carbon is a 
bureaucrat's dream. If you regulate carbon, you regulate life 
itself. Do you agree with that?
    Mr. Hadzi-Antich. I do, indeed, sir.
    Senator Inhofe. Mr. Gomez, based on your review of the 
SAB's organic statute, if Congress requested that the SAB 
review the endangerment finding or any of the climate 
regulations, does the SAB have an obligation to respond to 
Congress, yes or no?
    Mr. Gomez. The short answer is yes.
    Senator Inhofe. Dr. McClellan, on the subject of hydraulic 
fracturing review, there are zero State and local experts for 
the 46-member chartered SAB. There are only 3 from States. Two 
of them are from California and one peer from Vermont.
    A large part of the Country is under-represented in 
reference to geographic diversity. Can you talk about how EPA 
selects members and why it seems that well qualified experts 
were excluded from the panel?
    We are talking about the hydraulic fracturing panel and I 
am the right one to ask that question because in my State of 
Oklahoma in 1948, they had the first hydraulic fracturing in 
Duncan, Oklahoma, the makeup of the committee.
    Mr. McClellan. The question is?
    Senator Inhofe. The question is, can you talk about how the 
EPA selects members and why it seems that well qualified 
experts like us are under-represented?
    Mr. McClellan. I would say there is no clarity to the 
process by which individuals were selected and it is obvious 
that States and regions of the Country where clearly hydraulic 
fracturing was used and is being used, there are knowledgeable 
people, knowledgeable scientists and engineers of the process.
    I have no idea why the EPA did not take advantage of the 
opportunity to consider individuals from those areas with the 
requisite knowledge.
    Senator Inhofe. Dr. McClellan, you heard what I asked Mr. 
Hadzi-Antich in terms of why do you suppose they would use, for 
the science to back up the request that was made, the IPCC just 
hours after the disclosure of Climategate and the scandal they 
went through?
    Mr. McClellan. I think that was a clear negligence on the 
part of EPA senior officials in their failure to utilize the 
SAB. I would say during the time period that I served on the 
SAB, if we had knowledge of that, we would have ``volunteered'' 
our services. We would have requested the authority to proceed 
with organizing a committee to address that important issue.
    That is why I emphasized the importance of SAB 
independently having the ability to identify issues that need 
to be addressed.
    Senator Inhofe. Thank you.
    Senator Rounds. Thank you.
    I am going to go back to Ranking Member Markey for 5 
minutes and then I will move to Senator Boozman.
    Senator Inhofe. Is this a second round we are starting?
    Senator Rounds. Yes, but I will allow the Ranking Member to 
go first.
    Senator Markey. Thank you, Mr. Chairman, very much.
    Just for the record, the endangerment finding was made by 
the Bush administration, Administrator Johnson, back in 2008. 
It was not actually accepted by Dick Cheney but that was the 
finding that was made.
    The ultimate endangerment finding was based upon the 
National Academy of Sciences, the IPCC, other peer review 
sources and it was actually upheld in court, just so we get 
that out there. The original decision was made by the Bush 
administration.
    I also want to make it clear as well that is consistent 
with decision made by Ronald Reagan back in 1982 in vetoing the 
bill that you referred to, Dr. Yosie.
    Mr. Faber, is it true that currently whenever the 
Scientific Advisory Board wants to respond to a public comment 
in writing, it has to convene a public meeting?
    Mr. Faber. That is right, Senator.
    Senator Markey. The Scientific Advisory Board Reform Act of 
2015 would require that the Board provide written responses to 
public comments it receives on its work. Is it true that if the 
Scientific Advisor Board is forced to respond in writing to 
every significant comment it receives, it will have to keep 
convening public meetings until the public stops sending 
comments and as a result, that is, in theory, something that 
could drag on forever?
    Mr. Faber. That is correct, Senator. It would create a 
significant disincentive for SAB members to participate if they 
had to respond to thousands and thousands of public comments.
    Senator Markey. Is it also true that during any rulemaking 
process that uses Scientific Advisory Board information the EPA 
would have to respond in writing to any public comment at that 
time so that the public will have ample opportunity to weigh as 
well?
    Mr. Faber. That is right, Senator.
    Senator Markey. Mr. Gomez, your testimony said the Science 
Advisory Board must respond to any congressional request from 
the specified committees. Taken to the extreme, could a 
committee submit an unlimited number of requests to the SAB 
without regard to the amount of money appropriated by Congress 
for scientific analysis? Would that pose a constitutional 
problem?
    Mr. Gomez. That is a possibility. That is something that 
could happen. EPA, under FACA, is allowed to set the agenda, to 
set the priorities, to sequence the work and to try to balance 
the work from the congressional committees and also from EPA. 
We view it as sort of mediating what may be coming from 
congressional committees.
    Senator Markey. Taken to an extreme, Mr. Faber, it could 
result in paralysis?
    Mr. Faber. Absolutely, you could significantly drain EPA 
and SAB resources depending on the types and number of requests 
that would come from Congress.
    Senator Markey. Dr. Yosie, you said in your testimony, the 
training and careers of scientists does not prepare them to 
offer specific insight or expertise concerning non-scientific 
factors.
    Do you disagree that the Scientific Advisory Board should 
be providing scientific advice to EPA and not advice on non-
scientific topics? Do you all agree with that? Dr. McClellan?
    Mr. McClellan. Yes, I think science only and stay out of 
the policy arena.
    Mr. Hadzi-Antich. Yes.
    Mr. Gomez. Yes.
    Mr. Yosie. Yes.
    Mr. Faber. Yes.
    Senator Markey. This bill requires SAB members to make 
their personal financial information public, introduces a 
substantially new work law by requiring written responses to 
public comments and prioritizes quotas over scientific merit 
for membership.
    I would like each of you to answer yes or no. Do you agree 
that this bill could discourage scientists from participating 
in scientific advisory boards, lead to long delays in the 
release of SAB reports and prevent EPA from being able to 
select the best scientists to serve on these panels? Mr. Faber.
    Mr. Faber. Yes.
    Mr. Yosie. Yes.
    Mr. Gomez. We do not take a position on pending bills.
    Mr. McClellan. I do not believe so, sir, no. The 
requirements in place now are not really remarkably different 
from that. I can say that I take a hard look every time I am 
asked to serve on a Federal advisory committee as to what I 
have to disclose with regard to my personal financial matters 
and those of my wife.
    Senator Markey. Thank you.
    Thank you, Mr. Chairman.
    Senator Rounds. Senator Boozman.
    Senator Boozman. Thank you, Mr. Chairman.
    Ranking Member, the Senator from Massachusetts, raised some 
concerns about the bill. I hope we can work in good faith.
    The examples you mentioned concerning the world being flat 
and things like that, I think it is important to remember that 
the people who were blocking that were the establishment or the 
people in power.
    All we are trying to do with this bill is make sure good 
science is represented and that we have the complete mix of 
science rather than those in power, whether this President or 
the next President. We cannot do anything about past Presidents 
but again, just making sure that we have a good frame work so 
that everybody is represented.
    There has been talk about disclosure. The bill only 
requires financial disclosure of items related to the work on 
the SAB, not private financial information. Again, this is 
something that we can work on and make some adjustments or 
whatever.
    I do think there is a level of disclosure that needs to be 
required so that we will know where the people are coming from.
    Dr. Yosie, you mentioned the fact of State representation 
and the situation that we are going to have people not 
qualified. This is an effort to make sure our States in 
situations where these things have tremendous impact on them, 
that their scientists, the people in situations like that, have 
representation on the Board.
    Again, we can look at numbers and percentages. Ours is 
actually less. I believe on the Clean Air Science Advisory, one 
in seven is required to be from the States. This is something 
not new.
    As the graph demonstrated, right now I think we have a 
situation where the States are not always represented. 
Certainly we can find good people from the States that do have 
the qualifications. Again, we would be willing to work with the 
particular numbers.
    Can you respond to that?
    Mr. Yosie. I have several brief comments.
    One is certainly during my time as Science Advisory Board 
Director we routinely had representatives of State and local 
governments, and in some cases, tribal areas represented on 
scientific advisory panels.
    The specific example that you referred to, the Clean Air 
Scientific Advisory Committee, has a statutory requirement that 
a State representative be included. In that specific instance, 
it is appropriate because of the ambient air quality standards 
review process the committee is responsible for reviewing the 
scientific content for. The States have a lot of strength on 
science in that particular matter.
    My particular concern was not to have a blanket requirement 
because the Science Advisory Board conducts dozens of 
scientific reviews every single fiscal year and not all of them 
are applicable to the expertise that you would find in a State, 
local or tribal area.
    Certainly, we had a number of State, local and tribal 
representatives and certainly more than just two States.
    Senator Boozman. I appreciate that. I think the graph 
illustrates.
    Again, we are trying to figure out how to do that? When you 
were in charge, you were able to do that. How do we do that 
such that we make sure there is representation? We would be 
quite willing to work with anyone in that regard.
    Mr. Hadzi-Antich, we appreciate your suggestions. I guess 
the question I have is do you agree that the reforms in our 
bill could sometimes result in a more robust regulatory action 
while at other times those reforms could lead to scaling back 
of proposals?
    I say that because, again, we are trying to get a bill that 
operates in good faith and gets the science out there. Would 
you agree theoretically we could have a more robust enforcement 
in some areas and less robust than currently?
    Mr. Hadzi-Antich. If this answers your question, I think it 
is important to have more robust enforcement. Right now there 
are all sorts of obstacles to judicial review of EPA's 
interaction with the Science Advisory Board.
    The easy fix for that would simply be to make EPA's 
interactions judicially reviewable under the current procedure 
set forth in the APA. It would make it clearer for EPA, for the 
SAB and for the general public.
    Senator Boozman. And not bypass the SAB?
    Mr. Hadzi-Antich. Exactly.
    Senator Boozman. That seems to be the theme of your 
testimony.
    Thank you, Mr. Chairman.
    Senator Rounds. Senator Inhofe.
    Senator Inhofe. Mr. Chairman, let me respond to my good 
friend from Massachusetts. I recognize that he was not a member 
of the U.S. Senate in December 2009. That was right after the 
scandal came out.
    When I talk about the scandal, the endangerment finding on 
which the decision was made has to be science. We asked Lisa 
Jackson, then Director of the EPA, what science she was going 
to rely on, so it has nothing to do with what might have 
happened or not happened in 2008 or the Bush administration.
    I asked her, you are going to come out with an endangerment 
finding. I remember that time because I was getting ready to go 
to Copenhagen as a one-man truth squad, as I recall at that 
time, and I did.
    I said, you have to base your endangerment finding on 
science. What science will you use? I had the transcript and 
all this. It was going to be the IPCC.
    Let me ask one question of you, Mr. Hadzi-Antich. Does it 
make sense when you have a scandal, I quoted the Guardian 
saying pretending this is not a real crisis is not going to 
make it go away. The Daily Telegraph noted the scandal could 
well be the most serious scandal in scientific history. The 
Atlantic Magazine said the stink of intellectual corruption is 
overpowering.
    Why do you think, knowing this, after these accusations 
were made all over the world, not just here in the United 
States, but primarily most of them in western Europe, they 
would use that board and their science to come up with their 
endangerment finding?
    Mr. Hadzi-Antich. I personally do not see any reasonable 
rationale for that, especially in light of those disclosures. I 
do not see any reason for not having submitted the endangerment 
finding to the Science Advisory Board for peer review.
    Senator Inhofe. I think the IG agrees with you because in a 
speech on the floor shortly after that, I said, in the IG 
report on the endangerment finding ``the IG confirms the 
endangerment finding was rushed, biased and flawed.'' Again, it 
was in this very committee hearing that she made the decision 
that was what she was going to use on which to base her 
science.
    I do not have anything else.
    Senator Rounds. Thank you.
    Mr. Markey, go ahead. Then I will finish up with closing 
remarks.
    Senator Inhofe. Let me ask a question of the Chair. Senator 
Markey and I are very close friends. We can go back and forth 
for a long period of time. We have to determine who is going to 
get the last word.
    Senator Markey. You can have the last word. The Majority 
always has the last word.
    Senator Inhofe. That is a great idea.
    Senator Markey. The reason that I know that is that I used 
to be in the Majority.
    Senator Inhofe. Let me ask, did you like it better?
    Senator Markey. Honestly, my mother always said the most 
important question in life is answering the question of 
compared to what, so yes. This is not as good.
    Senator Rounds. Being the chairman is best because I still 
get the last word.
    Senator Markey. I remember December 2009 very well. I 
remember it because then I was the chairman, I was in the 
Majority. I was the chairman of the Select Committee on Energy 
Independence and Global Warming.
    Senator Inhofe and I actually debated his perspective on 
CNBC, on Fox and we went on show after show debating his 
position and my own position back then. I would actually 
contend though that science has not been questioned 
fundamentally and that the planet is dangerously warming. Last 
year was the warmest year ever recorded.
    Actually, off the coast of Massachusetts in January of this 
year, we had temperature readings of 21 degrees above normal in 
our ocean, which to a certain explains why we had 110 inches of 
snow and Anchorage, Alaska only had 20 inches of snow this 
year. They actually had to truck in snow to start the Iditarod 
dog race this year because of that warming of the Arctic and 
the change in the flow of the cold air coming down and hitting 
the warm, warm ocean off the Atlantic, off Massachusetts.
    This is just further corroboration of the accuracy of the 
finding that the planet is warming and that there are 
consequences for the planet. At the end of the day, the 
question is, do we want to make sure the scientific process 
does stay intact and that there is integrity to it?
    I would just ask you, Dr. Yosie, what would be the 
implications from your perspective if all of the scientists 
were required to have their income tax returns made public? 
What would be the level of success you would have in recruiting 
scientists to do this work?
    Mr. Yosie. You would always get some scientists who would 
volunteer to serve on panels. Those would not necessarily be 
those who have the most esteemed qualifications and training 
for the review you are seeking to organization.
    Senator Markey. I tend to agree with you. I think we have 
to be very careful as we wade into this area. I think it is 
absolutely imperative that we do have the best scientists and 
that we also make sure they are properly vetted as well but 
that there is a certain confidentiality to their own personal 
records or else I think we will have a significant 
discouragement factor that will limit the full pool of the best 
scientists that we have in the United States to be giving 
advice to the Federal Government.
    I think that is true whether it is a Democratic or 
Republican President. We want the best people to be 
volunteering but we also have to protect them from being turned 
into political pinatas. If they are willing to serve, I do not 
think personal attacks upon their integrity should be a part of 
this process.
    I would just say that from my perspective, I think this is 
a highly illuminating hearing. I think moving forward, we 
should just exercise great caution so that we do not create a 
discouragement to the best and brightest participating in a 
very important public process.
    I thank you, Mr. Chairman.
    Senator Rounds. Thank you.
    Senator Boozman.
    Senator Boozman. I appreciate that, Senator Markey. We 
really would be very willing to work with you in that regard. 
Certainly, we do not want that to happen either.
    Dr. Yosie, you do agree though that financial disclosure of 
items related to their work on the SAB should be disclosed?
    Mr. Yosie. That is important to maintaining the integrity 
of the process.
    Senator Boozman. That is truly what we are trying to do. 
That should not dampen anybody from serving. That probably will 
dampen some from serving, but that is probably an appropriate 
damper.
    Mr. Yosie. It is a judgment call. I think we want to do a 
thorough vetting of people who are under consideration for 
appointment to these panels, but I think being overly intrusive 
in terms of stock portfolios or income tax returns, I think is 
an abuse.
    I think you will see highly qualified and talented 
scientists who run away from wanting to be appointed to such 
processes.
    Senator Boozman. We hope we can work with all of you on 
this and again, get a product that is good in the sense that we 
have integrity with the process. That really is the key so that 
we do not prevent some of the things you mentioned earlier.
    Thank you.
    Senator Rounds. Senator Inhofe.
    Senator Inhofe. Thank you, Mr. Chairman.
    We have done this so often now, I do not need notes.
    I can remember in one of our debates, going from memory, 
approximately every 30 to 40 years we do have changes in 
patterns. In 1895 was the first time they started using the 
term global warming because things got warming for a 30-year 
period from 1895 to about 1918. Then we went into a cooling 
period. That lasted until 1945. You are talking about 
approximately the same length of time.
    They actually used another ice age. I remember even the 
covers of magazines like Newsweek and others, each time this 
happened, they came up with Alaska polar bears dying and all 
these things. Then they completely reversed it when another 30-
year trend comes.
    In 1945, that was the year of the greatest surge of 
CO<INF>2</INF> at that time that had been recorded, right after 
World War II. That precipitated not a warming period but a 
cooling period that lasted until about 1975. We know what has 
happened since that time.
    Climate is always changing. We understand that. The other 
day on the floor, I made that point when Senator Whitehouse had 
an amendment. I said, yes, I agree with the amendment because 
the amendment was saying climate is changing. Everyone 
understands that.
    The issue here, though, was, in order for them to do what 
they wanted to do on this massive change, keep in mind this was 
not always Democrats because the first bill introduced was the 
McCain-Lieberman bill. The last time I checked, Lieberman was 
an Independent and McCain was a Republican. That was in 2002 
and they reintroduced in 2005.
    It has been reintroduced and my good friend from 
Massachusetts has had a bill and some came over from the House 
when he was in the House and some did not. Nonetheless, people 
are getting kind of worn out on this and all the hysteria that 
the world is coming to an end and the fact this has been going 
on for a long period throughout recorded history.
    Now we have a situation where the public is saying, we are 
not as interested as we were. The last Gallup poll was about 3 
weeks ago. Of the environmental concerns, global warming was 
next to the last. Going from memory, I think it was out of 40 
concerns. That used to be No. 1 or No. 2.
    I think there has been a lot of doubt. The American people 
are looking at this. Confession is good for the soul. I say to 
my friend, Senator Markey, back when this first started, I 
assumed everything was correct until in your State of 
Massachusetts, Dr. Richard Lindzen, an MIT professor came out 
with the quote I gave about regulation of carbon is regulating 
life. He established some doubt.
    On the Senate floor, I talked about that and scientists 
started calling and saying why they were rejected from 
participation in the IPCC. It is on the record. I talked about 
this 10 years ago.
    Now we have the situation where in December 2009, the 
Administrator of the EPA, knowing she had to rely on some 
science to come up with an endangerment finding, which 
President Obama wanted it to happen, I asked her at that time 
on what science she was going to base it and that was the IPCC.
    Again, I will not repeat all of these things. I have 40-
some criticisms on Climategate associated with that, trashing 
the science of IPCC. It does not serve any useful purpose to 
repeat that at this time.
    That is the only thing I was trying to get across. It was 
based on science that I think was flawed science. Many of the 
scientists agreed with me.
    Senator Markey. Would the Senator yield?
    Senator Inhofe. Sure, I will yield.
    Senator Markey. I agree with you that confession is good 
for the soul. It took 350 years for the Catholic Church to go 
to confession. Finally, Pope John Paul II pardoned Galileo 
which was great news in the Catholic Church that finally 
confession had taken place.
    The good news is now that Pope Francis, a Jesuit, who is a 
chemist, is going to issue an encyclical on climate change. He 
is convinced of the science so we have come a long way as a 
church, especially when they name a Jesuit as the Pope who was 
a chemist.
    I think there is increasingly going to be that linkage.
    Senator Inhofe. What is the question?
    Senator Rounds. Actually, the amount of time you could 
yield to him has now expired.
    Senator Markey. I have found in the Senate that many 
questions actually come in the form of answers when Senators 
are speaking.
    I thank the Senator.
    Senator Inhofe. Let me say that I genuinely have a love for 
this guy. It is the hypocrites that I do not like. He is not a 
hypocrite, he really believes this stuff.
    Senator Rounds. It is nice to be the Chairman because I get 
the last word.
    If there is anything I think comes from a discussion like 
this where there are not a lot of people here, but those who 
are, clearly have an interest in working and solving problems.
    There was a term used today that I think we could all learn 
from. I believe the term was Lysenkoism. If there is one thing 
we all agree on, it is that we do not want Lysenkoism. You will 
find there are folks right now who will look at what has 
happened at the EPA and there is a question of whether or not 
they have actually used the Science Advisory Board 
appropriately in the manner in which everyone, Republican, 
Democrat or Independent, wanted it done in the first place.
    If you want credibility and trust in government, you have 
to be able to look at the independent science advisors, trust 
them, trust they come from multiple facets of life with a great 
deal of experience.
    Senator Boozman has proposed a bill in which he wants to 
spread that out. He wants it across the Country. He is 
frustrated because what he sees right now is it does not appear 
as though with an open process, people are trusting the science 
is being utilized and accessed the way it was intended in the 
first place.
    The question is whether or not those individuals who serve 
on it are being picked in a fair manner. Those are valid 
questions and are something I believe an oversight committee 
has the ability and responsibility to ask the questions.
    We ask the question because neither Republicans nor 
Democrats want Lysenkoism. The word of the day, Lysenkoism, is 
something I think we can all agree is something we do not want 
when it comes to the EPA or any other agency of the Federal 
Government creating laws, regulations or otherwise influencing 
the average lives of American citizens.
    With that, I do have some additions to the record. I ask 
unanimous consent to submit two additional statements for the 
record, a statement from the American Chemistry Council and a 
statement from the Council of State Governments West. Without 
objection, so ordered.
    [The referenced statements follow:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   
    
    
    
    Senator Rounds. Once again, I would like to thank our 
witnesses for taking the time to be with us today. I would also 
like to thank my colleagues who attended this hearing for their 
thoughts and their questions.
    The record of this hearing will be open for 2 weeks which 
brings us to Wednesday, June 3, 2015.
    With that, Ranking Member Markey, thank you. Thank you 
other members for your participation today.
    With that, this hearing is adjourned.
    [Whereupon, at 11 a.m., the subcommittee was adjourned.]

                                 <all>
</pre></body></html>
